WAIVER

Supreme Court, U.S.
FILED

NOV 1 8 2020

Supreme Court of the United States

OFFICE OF THE CLERK

No. 20-6241

v.

Lisa Marie Smith
(Petitioner)

Kelly Services, Inc., et al.
(Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I am a member of the Bar of the Supreme Court of the United States.
Ick I am not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.
Iola)
Signature
Date:

11/18/20

(Type or print) Name

Eric J. Janson

KXMr.
Firm

❑ Ms.

❑ Mrs.

❑ Miss

Seyfarth Shaw LLP
975 F Street NW

Address
City & State
Phone

Washington DC

Zip 20004

202-463-2400

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
Cc:

Lisa Marie Smith
6219 Palethrop Street
Philadelphia, PA 19120

RECEIVED
NOV 2 4 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

Supreme Court of the United States

Lisa Marie Smith
(Petitioner)
No. 20-6241

v.
Kelly Services, Inc., et al.
(Respondent)

Tod,_ t--

,s

Counsel for Respondent:

NOTICE IS HEREBY GIVEN pursuant to Rule 12.3 that a petition for a writ of
certiorari in the above-entitled case was filed in the Supreme Court of the United States
on October 5, 2020, and placed on the docket November 6, 2020. Pursuant to Rule 15.3,
the due date for a brief in opposition is Monday, December 7, 2020. If the due date is a
Saturday, Sunday, or federal legal holiday, the brief is due on the next day that is not a
Saturday, Sunday or federal legal holiday.
Beginning November 13, 2017, parties represented by counsel must submit filings
through the Supreme Court's electronic filing system. Paper remains the official form of
filing, and electronic filing is in addition to the existing paper submission requirement.
Attorneys must register for the system in advance, and the registration process may take
several days. Further information about the system can be found at
https://www.supremecourt.gov/filingandrules/electronicfiling.asnx.

Unless the Solicitor General of the United States represents the respondent, a
waiver form is enclosed and should be sent to the Clerk only in the event you do not
intend to file a response to the petition.
Only counsel of record will receive notification of the Court's action in this case.
Counsel of record must be a member of the Bar of this Court.

Ms. Lisa Marie Smith
6219 Palethrop St.
Philadelphia, PA 19120
(215) 457-5802

NOTE: This notice is for notification purposes only, and neither the original nor a copy should be filed in the
Supreme Court.

Seyfarth Shaw LLP

6 Seyfarth

975 F Street, N.W.
Washington, DC 20004-1454
T (202) 463-2400
F (202) 828-5393
ejanson@seyfarth.com
T (202) 828-3532
www.seyfarth.com

November 18, 2020
VIA FEDEX
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Lisa Marie Smith v. Kelly Services, Inc., et aL
No. 20-6241

Dear Mr. Harris:
Enclosed for filing please find Respondents' Waiver, stating an intention not to file a
response to the petition for a writ of certiorari in the above matter, unless requested by the Court.
Please date-stamp the extra copy and kindly return it to me in the enclosed self-addressed,
stamped envelope.
A copy of this letter and waiver form have been sent to Petitioner.
Please do not hesitate to contact me if you have any questions.
Respectfully submitted,
SEYFARTH SHAW LLP

e+)
Eric J. Janson
cc:

Ms. Lisa Marie Smith
6219 Palethrop St.
Philadelphia, PA 19120

RECEIVED
NOV 2 3 2020
OFFICE OF THE CLERK
SUPREME COURT U.S.

66830190v.1

